NO.
IN THE SUPREME COURT OF THE UNITED STATES

MARCO ANTONIO SERRANO,
Petitioner

Vv.

UNITED STATES OF AMERICA,
Respondent

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Marco Antonio Serrano, through undersigned counsel, respectfully requests
leave to file his Petition for Writ of Certiorari to the Sixth Circuit Court of Appeals without
prepayment of costs or fees and to proceed in forma pauperis pursuant to Rule 39. Petitioner
proceeded in forma pauperis in the Sixth Circuit Court of Appeals where the undersigned was

appointed to represent him pursuant to the Criminal Justice Act, 18 U.S.C. ยง3006(A)(d)(7).

ida dk. submitted,
Te ee

Mark R. DeVan (0003339)
Berkman, Gordon, Murray & DeVan
55 Public Square, Suite 2200
Cleveland, Ohio 44113-1949

Phone: (216) 781-5245

Fax: (216) 781-8207

Attorney for Applicant
Marco Antonio Serrano
